Orrick, Herrington & Sutcliffe LLP

Columbia Center
1152 15th Street, N.W.
Washington, DC 20005-1706
+1 202 339 8400
orrick.com

Kelsi Brown Corkran

E kcorkran@orrick.com
D +1 202 339 8497
F +1 202 339 8500

October 26, 2020
Via Electronic Filing/Overnight Delivery

Mr. Scott S. Harris
Clerk of the Supreme Court
of the United States
1 First Street, NE
Washington, DC 20543
Dear Mr. Harris:
I represent Respondent Patrick M. Greve in Bass v. Greve, et al., No. 20-283. The
Petition for a Writ of Certiorari was filed August 31, 2020 and placed on the docket September
4, 2020. On September 24, 2020, Mr. Greve waived his right to respond to the Petition. The
Court called for a response on October 13, 2020. Mr. Greve’s brief in opposition is due no later
than November 12, 2020.
I was recently retained as new counsel in this matter, and therefore seek a 12-day
extension to November 24, 2020 so that I can review the extensive record, study the relevant
case law, and prepare the brief in opposition. An extension is further justified by the press of
competing business in other matters. I am responsible for the opening brief in BBB Industries,
LLC v. Cardone Industries, Inc., No. 3003 EDA 2019 (Pa. Super.), also due November 12, 2020,
and am scheduled for oral argument in Examworks, LLC v. Baldini, et al., No. 20-16125 (9th
Cir.), on November 16, 2020.

October 26, 2020
Page 2
Pursuant to Rule 30(4) of the United States Supreme Court, I respectfully request an
extension of twelve days—to and including Tuesday, November 24, 2020—to file a brief in
opposition to the Petition for a Writ of Certiorari. Thank you for your consideration.
Sincerely,

Kelsi Brown Corkran

KBC/bvs
cc:

Thomas W. Condit
Frank R. Brazil
Keli J. Oliver

